IN THE
SUPREME COURT.OF THE UNITED STATES
ROBERT JAMES JAFFE, MD
Petitioner,
Vs.
Congressman BRAD SHERMAN and Does 1-10
Respondents,
PETITION FOR WRIT OF CERTIORARI
After a Decision by the California Court of Appeals
Ninth Appellate District
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV18-9998-RFK(FFMX)

Robert James Jaffe, MD
Internal Medicine
22139 Burbank Blvd., Suite 5
Woodland Hills, CA 91367
(818)713-1378
Petitioner in Pro Se

RECEIVED
FEB 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

i

QUESTIONS PRESENTED FOR REVIEW
(1) Congress delegated the US Supreme
Court justices the discretion to choose the
petition for certiorari cases they will grant and
Congress has directed that the US Supreme
Court justices create, adhere, and enforce the
FRCP rules of law that the US Supreme Court
and its lower courts are to adhere to. When US
Supreme Court justices’ supervisory power is
called upon to enforce the US Supreme Court
rules of law and U.S. Supreme Court precedent,
may the US Supreme Court justices refuse to
oversee and refuse to enforce the US Supreme
Court FRCP rules and law and refuse to enforce
the U.S. Supreme Court precedent?
(2) When a Congressman contrives through
fraudulent misrepresentations of the facts of the
case, to not allow Congress to exercise its
inherent oversight over federal agencies and
federal judicial misconduct, will the US
Supreme Court exercise its supervisory power
and its power of checks and balances?
(3) Whether an action for relief from judgment
procured by judicial fraud on the court may be
summarily dismissed and summarily upheld,
without review of the fraud on the court
allegations - the very allegations on which relief
could be granted and the fraudulently procured
judgment set aside?

ii

(The fraudulently procured judgment upheld the
removal of a constitutionally-protected property
right without due process. All the Courts, have
refused an evidentiary hearing through summary
dismissals and summary affirmances without
review of the fraud on the court allegation, violating
U.S. Supreme Court precedent; Hazel-Atlas Glass
Co. v. Hartford-Empire, 322 U.S. 250-51 and U.S.
v. Throckmorton, 98 U.S. 61)(requiring an
evidentiary hearing for actions for relief from
judgment for fraud on the court.)The courts also
ignored the holding in United States v. Alex, 816010, (summary affirmance is prohibited in cases
where an evidentiary hearing has been denied.))

iii

PARTIES TO THE ACTION
Petitioner in Pro Se:
M.D.

ROBERT J, JAFFE,

Respondent:
BRAD SHERMAN.

U.S. Congressman,

iv

TABLE OF CONTENTS
QUESTIONS FOR REVIEW

1-11

PARTIES TO THE ACTION

m

CITATIONS OF REPORTS OF
OPINIONS ENTERED IN THE
CASE................... :.....................

1

STATEMENT OF BASIS FOR U.S.
SUPREME COURT JURISDICTION

3

CONSTITUTIONAL PROVISIONS

4

STATEMENT OF CASE

5

ARGUMENT/REASON FOR REVIEW

5

1. ALL THE COURTS HAVE SUMMARILY
DISMISSED AND SUMMARILY AFFIRMED ■
THE SUMMARY DISMISSALS OF
PETITIONER’S ACTIONS FOR RELIEF FROM
JUDGMENT FOR JUDICIAL FRAUD ON THE
COURT, WITHOUT REVIEWING
PETITIONER’S FRAUD ON THE COURT
ALLEGATIONS - THE VERY ALLEGATIONS
ON WHICH RELIEF CAN BE GRANTED AND
THE FRAUDULENTLY PROCURED STATE
7
COURT JUDGMENT SET ASIDE

II. U.S. SUPREME COURT PRECEDENT
REQUIRES THAT ACTIONS FOR RELIEF
FROM JUDGMENT BE TRIED IN OPEN
COURT, WITH THE FRAUD ON THE COURT
ALLEGATIONS RECEIVING THE FULL
7
CONSIDERATION OF THE COURT
III. THE COURTS’ JUDICIAL ACTS OF
FRAUD ON THE COURT, TROUGH
WHICH THEY SUMMARILY DISMISSED
PETITIONER’S ACTIONS FOR RELIEF FROM
JUDGMENT FOR FRAUD ON THE COURT
WITHOUT REVIEW OF THE FRAUD ON THE
COURT ALLEGATIONS, DEPRIVED
PETITIONER OF AN EVIDENTIARY
HEARING PER U.S. SUPREME COURT
9
PRECEDENT
IV. SUMMARY AFFIRMANCE IS
PROHIBTED WHERE THE PLAINTIFF HAS
BEEN DENIED AN EVIDENTIARY
10
HEARING
V. U.S. SUPREME COURT PRECEDENT
AND FEDERAL CASE LAW HOLD THAT
JUDICIAL ACTS OF FRAUD ON THE
COURT, JUSTIFY THE SETTING ASIDE OF A
JUDGMENT SO PROCURED, AND THERE IS
NO JUDICIAL IMMUNITY FOR JUDICIAL
11
ACTS OF FRAUD ON THE COURT

vi

VI. A JUDGMENT IS A "VOID JUDGMENT"
IF THE COURT THAT RENDERED THE
JUDGMENT ACTED IN A MANNER
INCONSISTENTWITH DUE PROCESS... 17
Peer Review Violations

18

The Hospital’s First Hearing Violations... 18
The Hospital’s Second Hearing Violations..20
Expert Witness
Testimony.......

22

The Hospital’s Third Hearing Violations....25
Judicial Acts of Fraud on the Court - The
Courts......................................................... 25
Congressman Sherman’s Fraudulent
Misrepresentation of Petitioner’s Case Thereby
Denying Congress’ Ability to Oversee the
26
Judicial Misconduct
CONCLUSION

43

vii

TABLE OF AUTHORITIES
Cases
Cobell v. Norton, 226 F.Supp.2d 1 (D.D.C.
09/17/2002)
14
Bulloch v. United States, 763 F.2d 1115 (10th
10, 11. 15. 32,
Cir.1985)
41
Fisher v. Amaraneni, 565 So. 2d 84 (Ala.
1990)............................................................................. 31
Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir.),
cert, denied, 439 U.S. 970 (1978)........................... 6,
34, 35
Klugh v. U.S.D.C.S.C..610F.Supp.892.901 ...16
Hazel-Atlas Glass Co. v. Hartford-Empire.
I, 3, 8, 9, 11, 14, 15
322 U.S. 250-51
Lowe, supra at 323 Board of Regents v. Roth.
408 U.S. 564 (1972)
3, 5,7
People of Illinois v. Miller, 2013 IL App (1st)
110879 and to the7th Circuit (Kenner v. C.I.R.,
12, 15
387 F.3d. 689(1968)
People of the State of Illinois v. Fred E. Sterling,
24, 43
357 Ill. 354; 192 N.E. 229 (1934)

U.S. v. Throckmorton
98 U.S. 61)

I, 3, 9, 12, 14, 40

viii

United States v. Alex,81-6010

I,i 3, 41

United States v. Hooton. 693 F.2d 857, 858 (9th
3, 31, 41
Cir. 1982)
Universal Oil Products Co. v. Root Ref.Co.,
328 U.S. 575, 580 (1946)...............................

12

Valiev v. Northern Fire &Marine Ins. Co. 254
31
US.S. 348, 41 S. Ct. 116 (1920)
Wonder v. Southbound Records, Inc., 364
So. 2d 1173 (Ala. 1978)

40

Constitutional Provisions
Fourteenth Amendment to U.S. Constitution
Due Process...ix, 3, 5, 7, 16, 24, 25, 26, 27, 32,
33, 35, 37
Statutes
California Business & Professions

Code § 809.................................
18, 20
C.C.P. (§1094.5(6)

5,
26

C.C.P.
§1094.5(d
42
U.S.C.§1112

26
5

ix

Publications
Wright, Miller & Kane at § 287................. 12
7 Moore’s Federal Practice 2nd Ed. P.512,
2, 24, 42
6023)
Rules
FRCP Rule 60(b)

27, 28, 29, 30, 31

1

CITATIONS OF REPORTS OF
OPINIONS ENTERED IN THE CASE
1. Memorandum Ninth Circuit Court of Appeals
dated June 22, 2010 (<-Jaffe v. Yaffe, et al, Case
No. 08-5513.)(App. 44-45);
2. Order Dismissing District Court Complaint
dated February 2, 2012, (United States District
Court Central Division), (Jaffe v. Pregerson, et al,
Case #2:ll-CV-08363-SVW.) (App. 320-331);
3. Order, Ninth Circuit Court of Appeals dated
June 14, 2012, summarily affirming the District
Court’s Dismissal of Complaint, (Jaffe v.
Pregerson, et al, Case No. 12-55664.) (App. 352);
4. The Ninth Circuit Court Appeal’s Order dated
September 10, 2012 denying Motion for
Reconsideration (Jaffe v. Pregerson, et al., Case
No. 12-55664). (App. 353);
5. Mandate of Ninth Circuit dated September 19,
2012, for Order denying Motion for Reconsideration
stating that Ninth Circuit Order Summarily
affirming the District Court’s Dismissal dated June
14, 2012 (App. 354);
6. The U.S. Supreme Court denial of Writ of
Certiorari (Jaffe v. Pregerson, et al., Case No. 2:11CV-08363-SVW) dated March 3, 2014. (App. 432);
7. Medical Board Letter Mar 19, 1998 (App 441)
8. Medical Board Letter May 1, 1998 (App 442)

2

9 Judgment dated July 28, 2015 from U.S. District
Court (Jaffe v. Roberts et al, Case No.CV-15-1018.
(App. 433);
10. Order granting Motion to Dismiss, dated July
28, 2015 from U.S. District Court {Jaffe v. Roberts
et al, Case No.CV-15-1018. (App. 434);
11 Order denying Motion for Reconsideration,
dated 08/11/15 from U.S. District Court {Jaffe v.
Roberts et al, Case No.CV-15-1018. (App. 435);
10. Order dated 09/01/15 from Ninth Circuit Court
{Jaffe v. Roberts et al, Case No.CV-15-56328. (App.
436);
12. Order dated May 18, 2016 from the Ninth
Circuit {Jaffe v. Roberts et al, Case No.CV-1556328, and (App.437);
13. Order dated August 24, 2016, Order on Motion
for Reconsideration from the Ninth Circuit {Jaffe u.
Roberts et al, Case No.CV-15-56328,(App.438).
14. Minutes Re: Order Defendant’s Motion to
Dismiss Mar 20, 2019 No.2:18-CV-09998-RGK-FFP
(App.531-537)
15. Mandate dated August 26, 2019 from the Ninth
Circuit {Jaffe v. Brad Sherman, U.S. Congressman,
Case No.CV-19-55364, (App.38).
16. Mandate dated October 18, 2019 from the
Ninth Circuit (Jaffe v. Brad Sherman, U.S.
Congressman, Case No.CV-19-55364,(App.539).

3

STATEMENT OF BASIS FOR U.S.
SUPREME COURT JURISDICTION
The Ninth Circuit Court of Appeals entered its
decision on August 26, 2019, and its Mandate on
October 18, 2019.
This Petition is timely filed under 28 U.S.
Section 2101(c).This Petition is proper pursuant
to U.S. Supreme Court Rule 10(b) as:
(a) A U.S. court has decided an important federal
question in a way that conflicts with relevant
decisions of the U.S. Supreme Court;
(b) A U.S. court of appeals has entered a decision
in conflict with the decision of another U.S. court
of appeals on the same important matter - (The
instant Order dated August 26, 2019 (Jaffe v.
Sherman, (App.439), cites United States v.
Hooten, 693 F, 2d 857, 858 (9th Cir. 1982) and
states, “...the questions raised in this appeal are
so insubstantial as to not require further
argument. However, United States v. Alex, 816010) holds, “We did not believe that the question
whether Alex was entitled to an evidentiary
hearing was so insubstantial as to merit
summary disposition.”:
(c) A United States court of appeals has so far
departed from the accepted and usual course of
judicial proceedings, and/or has sanctioned such a
departure by a lower court, as to call for an

4

exercise of the U.S. Supreme Court's supervisory
power.
CONSTITUTIONAL PROVISIONS
U.S. Constitution, Amendment XIV, Due Process.
STATEMENT OF CASE
Petitioner a Board Certified Internist and
an attending physician with the Kaiser
Foundation Hospital (the Hospital), and partner
with the affiliated Southern California Kaiser
Permanente Medical Group for 17 years. (1977
to 1994).
The Hospital removed petitioner’s
“already-licensed” hospital privileges (a
constitutionally protected property right) (see
Lowe, supra at 323 and Board of Regents v.
Roth. 408 U.S. 564 (1972)), without due process
of law, through fraudulent peer review and
fraudulent hearings.
Per California Business & Professions Code
§809, et.seq., and Federal statute, 42
U.S.C.§1112, whenever a Hospital terminates a
physician, the Hospital must afford peer review
and hearings in strict accordance with statutory
law (809, et seq.) and due process, to allow
appeal of the termination. The Hospital held a
fraudulent peer review and three fraudulent
Hearings, wherein numerous due process
violations occurred.

5

Per State law, having completed the peer
review process and Hearings, Petitioner then
had the right to petition the State court for Writ
of Mandamus, to reverse the termination.
The State court procured a judgment in
favor of the Hospital through judiciary fraud on
the court, and in turn the State Appellate,
through fraud on its court sustained the lower
court’s judgment.
Later, four Federal District Courts and five
Federal Circuit Courts, through acts of judiciary
fraud, denied review of plaintiffs Complaints
and Motions, thereby denying an evidentiary
hearing on a State court judgment procured and
sustained by fraud on the State and Federal
courts.
The four Circuit Courts’ decisions are in
direct contradiction to the holdings of five other
Circuit Courts, FRCP Law, U.S. Supreme Court
and State Appellate precedent as stated herein.
Petitioner now proceeds to the U.S.
Supreme Court.
ARGUMENT/REASON FOR REVIEW
Petitioner requests the U.S. Supreme Court
exercise its supervisory power, as the Federal
District and Appellate Courts have through
overt acts of judicial fraud on the court violated
U.S. Supreme Court precedent and federal rules
of law, by summarily dismissing and summarily

6

upholding the summary dismissals of
Petitioner’s Rule 60(b) Complaints and Motions
to set aside a fraudulently procured state court
judgment, procured by judicial acts of fraud on
the courts).all without review of Petitioner’s
fraud on the court allegations - the very
allegations upon which relief could be granted
and the fraudulent judgment set aside.
Respondent Congressman Sherman also
through deliberate fraudulent
misrepresentation of the facts of petitioner’s
case denied Congress’s ability to oversee the
judicial misconduct.
I.
ALL THE COURTS HAVE SUMMARILY
DISMISSED AND SUMMARILY
AFFIRMED THE SUMMARY DISMISSALS
OF PETITIONER’S ACTIONS FOR RELIEF
FROM JUDGMENT FOR JUDICIAL
FRAUD ON THE COURT, WITHOUT
REVIEWING PETITIONER’S FRAUD ON

THE COURT ALLEGATIONS - THE VERY
ALLEGATIONS ON WHICH RELIEF CAN
BE GRANTED AND THE FRAUDULENTLY
PROCURED STATE COURT JUDGMENT
SET ASIDE.
As shown herein and in petitioner’s district
court complaint, all the courts have, through
judicial acts of fraud on the court, summarily
dismissed and summarily affirmed the
summary dismissals of petitioner’s actions for

7

relief from judgment for judicial fraud on the
court, admittedly without reviewing petitioner’s
fraud on the court allegations, the very
allegations on which relief can be granted and
the fraudulently procured state court judgment
set aside.
Petitioner asks oversight from the U.S. Supreme
Court, as he asked of respondent Congressman
Sherman, as the judicial acts of fraud outlined
herein, have admittedly not been reviewed or
addressed by any of the courts, and have let
stand a fraudulently procured state court
judgment that took away a constitutionally
protected property right, (petitioner’s “alreadylicensed” hospital privileges), without due
process of law.
(See Lowe, supra at 323 and Board of Regents v.
Roth. 408 U.S. 564 (1972)):(Hospital privileges,
when already licensed are a constitutionally
protected property right.
II

U.S. SUPREME COURT PRECEDENT
REQUIRES THAT ACTIONS FOR RELIEF
FROM JUDGMENT BE TRIED IN OPEN
COURT. WTTH THE FRAUD ON THE
COURT ALLEGATIONS RECEIVING THE
FULL CONSIDERATION OF THE COURTU.S. Supreme Court precedent requires that
actions for relief from judgment be tried in open

8

court, with the fraud on the court allegations
getting the full consideration of the court.
The required standard of review for actions to
set aside a judgment for fraud on the court is set
out in Hazel-Atlas, 322 U.S. at 250-51:
“This is a suit in equity in the District
Court to set aside or amend the
judgment. Such a proceeding is required
to be settled bv Federal law and would be
tried, as it should be. in open court...”
As to the immediate aim of this
proceeding, namely, to nullify the
judgment if the fraud procured it. and if
Hazel is equitably entitled to relief, an
effective and orderly remedy is at hand.
The District Court has the power upon
proper proof of fraud to set aside [a
judgment].. .in a trial which has
presented the claims of the parties and
where they have received the
consideration of the court... (HazelAtlas, 322 U.S. at 250-51)...If it is found
that there was a fraud on the court, the
judgment should be vacated....” HazelAtlas, 322 U.S. at 250-51. (See also FRCP
Rule 60(b)). (Emphasis added.)
Thus, the summary dismissals and summary
affirmances of the summary dismissals of
petitioner’s actions for relief from judgment for
fraud on the court, without review of the fraud

9

on the court allegations, violated the required
standard of review for fraud on the court actions
set out by U.S. supreme court precedent
requiring that they be tried in open court, and
that the fraud on the court allegations receive
the full consideration of the court.
III
THE COURTS’ JUDICIAL ACTS OF
FRAUD ON THE COURT, THROUGH
WHICH THEY SUMMARILY DISMISSED
PETITIONER’S ACTIONS FOR RELIEF
FROM JUDGMENT FOR FRAUD ON THE
COURTWITHOUT REVIEW OF THE
FRAUD ON THE COURT ALLEGATIONS,
DEPRIVED PETITIONER OF AN
EVIDENTIARY HEARING PER U.S.
SUPREME COURT PRECEDENT.
Regarding relief from judgment for fraud on the
court actions, U.S. v. Throckmorton, 98 U.S. 61,
25 L.Ed. 93 hold that there must be a “real
contest” before the court on the subject matter of
the suit:
“The cases where such relief has been
granted are those in which, by fraud or
deception practiced on the unsuccessful
party, he has been prevented from
exhibiting fully his case, by reason of
which there has never been a real contest
before the court of the subject matter of
the suit.”(Emphasis added.)

10

Thus, the courts’ summary dismissals and
summary affirmances of the summary
dismissals of petitioner’s fraud on the court
actions -without reviewing plaintiffs fraud on
the court allegations - the very allegations on
which relief could be granted and the
fraudulently procured judgment set aside,deprived petitioner of an evidentiary hearing,
violating U.S. Supreme Court precedent.
Bulloch v. United States, 763 F.2d 1115 (10th
Cir.1985) defines “judicial fraud on the court:
“Fraud on the court is.. .fraud where the court or
a member is corrupted or influenced or influence
is attempted or where the judge has not
performed his judicial function.

IV
SUMMARY AFFIRMANCEIS PROHIBTED
WHERE THE PLAINTIFF HAS BEEN
DENIED AN EVIDENTIARY HEARING.
The courts’ summary affirmances of the District
Court’s summary dismissals of petitioner’s
complaints for relief from judgment for fraud on
the court, without any review of the fraud on the
court allegations, violates the holding in United
States v. Alex, supra, 707 F.2d. 519, 81-6010816010, (holding that summary affirmance is
prohibited where an evidentiary hearing was
denied).

11

Thus, as shown above, Appellant’s District
Complaint arises from the named defendants’
failure to perform their judicial functions in
accordance with the Bulloch definition of
judicial fraud upon the court, and in violation of
the Hazel-Atlas requirement that an action for
relief for judgment for fraud upon the court “is
required to be settled bv Federal law and would
be tried, as it should be. in onen court. . .
instead of through the unsatisfactory method of
affidavits . .
(Emphasis added.)
V
U.S. SUPREME COURT PRECEDENT AND
FEDERAL CASE LAW HOLD THAT
JUDICIAL ACTS OF FRAUD ON THE
COURT, JUSTIFY THE SETTING ASIDE
OF A JUDGMENT SO PROCURED, AND
THERE IS NO JUDICIAL IMMUNITY FOR
JUDICIAL ACTS OF FRAUD ON THE
COURT
The District Court on February 8, 2007
falsely summarily dismissed Petitioner’s FRCP
Rule 60(b) complaint for relief from judgment
for judicial fraud on the state court, (Jaffe v.
Yaffe, etc., et al).(CV 06-08094-DDP (JTL){App.
35-41)without reviewing Petitioner’s fraud on
the court allegations, bv falsely denying subject
matter jurisdiction, despite FRCP Rule 60(b) set
before it which confers such subject matter
jurisdiction to the district court, and despite
U.S. Supreme Court precedent holding: “The

12

power to vacate a judgment that has been
obtained bv a fraud on the court is inherent in
all courts”. Wright, Miller & Kane at § 2870
(citing Universal Oil Products Co. v. Root
Ref.Co., 328 U.S. 575, 580 (1946)).’
The District Court on February 2, 2012
dismissed Petitioner’s Complaint for relief from
judgment for fraud on the District Court (Jaffe
v. Pregerson, et al., Case No. 2:ll-CV-08363SVW), without reviewing petitioner’s fraud on
the court allegations, by falsely invoking
“judicial immunity” is its reason to not review
the fraud on the court allegations. (See Court’s
Order p. 2, fn. 1 (App. 320-332)): “Because of
judicial immunity the court need not address
whether plaintiff has sufficiently alleged fraud
on the court.”
(See outlined herein all the other courts’ false
claimed bases for summary dismissals and
summary affirmances, and false claimed bases
for not reviewing or addressing petitioner’s
fraud on the court allegations.)
Judicial immunity does not apply, nor shield
“judicial acts” of fraud on the court. U.S.
Supreme Court precedent and Federal case law
hold that “judicial acts” of fraud on the court are
grounds to set aside a judgment so procured.
See Trans Aero Inc. v. LaFuerga Area
Boliviana, 24 F.3d 457 (2nd Cir. 1994):

13

“Fraud destroys the validity of everything
into which it enters.” Nudd v. Burrows
(1875), 91 U.S. 426, 23 Led 286,
290; particularly when “a iudse himself is
a party to the fraud.” Cone v. Harris (Okl.
924), 230 P. 721, 723. Windsor v. McVeigh
(1876), 93 US 276, 23 Led 914, 918.
“One species of fraud unon the court
occurs when an 'officer of the court'
perpetrates fraud affecting the ability of
the court or jury to impartially judge a
case. Whenever any officer of the court
commits fraud during a proceeding in the
court, he/she is engaged in "fraud upon
the court."
(Pumphrey v. K. W. Thompson Tool Co.,
62 F.3d 1128, 1130 (9th Cir.1995) “A
judge is an officer of the court, as well as
are all attorneys. A State judge is a State
judicial officer, paid by the State to act
impartially and lawfully. A Federal judge
is a Federal judicial officer, paid by the
Federal government to act impartially
and lawfully. A judge is not the court.”
People v. Zajic, 88 Ill.App.3d 477, 410
N.E.2d 626 (1980).

"Fraud upon the court" has been defined by the
7th Circuit to "embrace that species of fraud
which does, or attempts to, defiles the court
itself, or is a fraud perpetrated by officers of

14

the court so that the judicial machinery cannot
perform in the usual manner its impartial task
of adjudging cases that are presented for
adjudication. “Kenner u. C.I.R., 387 F.3d 689
(1968); 7 Moore's Federal Practice, 2d ed., p.
512, f 60.23.
The 7th Circuit further stated "a decision
produced hv fraud upon the court is not in
_________
essence a decision at all, and never becomes
final. No fraud is more odious than an attempt
to subvert the administration of justice.” HazelAtlas supra, 322 U.S. 238 (1944).
In Browning u. Navarro, 826 F.2d 335 (5th
Cir. 1987) the court analyzed two Supreme
Court cases dealing with 'fraud on the court'
actions: United States v. Throckmorton, 98 U.S.
61 (1878), and Hazel-Atlas. Throckmorton
stands clearly for the proposition that extrinsic
fraud is that, fraud that was not the subject of
the litigation that infects the actual judicial
process is grounds to set aside a iudgment as
procured bv fraud.
Under Federal law, when anv officer of the court
lias committed “fraud upon the courts”, the
orders and judgment of that court are void, of no
legal force or effect. Cobell v. Norton, 226
F.Supp.2d 1 (D.D.C. 09/17/2002).)
Tt Is clear and well-settled law that anv attempt
to mmmit, "fraud upon the court" vitiates the
entire proceeding. The People of the State of

15

Illinois v. Fred E. Sterling, 3. In re Village of
Willowbrook. 37 Ill.App.2d 393 (1962); Dunham
v. Dunham, 57 Ill.App. 475 (1894), affirmed 162
Ill. 589 (1896); Skelly Oil Co. Manufacturers
Hanover Trust Co. v. Yanakas, 7 F.3d 310 (2nd
Cir. 0/18/1993).)
“Fraud on the court...is fraud which is
directed to the judicial machinery itself and is
not fraud between the parties....It is thus fraud
where the court or a member is corrupted or
influenced or influence is attempted or where
the judge has not performed his judicial
function-thus where the impartial functions of
the court have been directly corrupted.” Bulloch
v. United States, 763 F.2d 1115 (10th Cir.1985).
(Emphasis added.)
“Fraud upon the court occurs whenever
any officer of the court commits fraud
before a tribunal. A judge is not a court:
he is under law an officer of the court and
he must not engage in any action to
deceive the court.” Trans Aero Inc. v.
LaFuerga Area Boliviana, 24 F.3d 457
(2nd Cir. 1994).
The power to vacate a judgment that has been
obtained by a fraud on the court is inherent in
all courts.” Wright, Miller & Kane at § 2870
(citing Universal Oil Products Co. v. Root Ref.
Co., 328 U.S. 575, 580 (1946). (Emphasis
added.)

16

Hazel-Atlas, 322 U.S. at 250-51 States:
“Finally, as to the immediate aim of this
proceeding, namely, to nullify the
judgment if the fraud procured it, and if
Hazel is equitably entitled to relief, an
effective and orderly remedy is at hand.
This is a suit in equity in the District
Court to set aside or amend the
judgment. Such a proceeding is required
bv settled Federal law and would be tried,
as it should be. in open court...”
(Emphasis added.)
Thus, as stated above, U.S. Supreme Court
precedence requires, that for actions for relief
from a judgment procured by fraud on the court,
the fraud on the court allegations must be
reviewed and given full consideration and an
evidentiary hearing in open court provided.
With the proof of the judgment procured by
fraud that judgment is to be set aside. This is
mandated by US Supreme Court law and
precedent and Federal and State Appellate
precedent.

17

VI.
A JUDGMENT IS A "VOID JUDGMENT' IF
THE COURT THAT RENDERED THE
JUDGMENT ACTED IN A MANNER
INCONSISTENT
WITH DUE PROCESS
Klugh v. U.S. D.C.S.C., 610 F. Supp. 892, 901
States: a judgment is a "void judgment" if the
court that rendered judgment... acted in a
manner inconsistent with due process.”
As shown herein, the Federal District and
Appellate Court judges all acted in a manner
inconsistent with due process and violated U.S.
Supreme Court Precedent governing the
standard of review for actions for relief from
judgment for fraud on the court by, through
their acts of judicial fraud on the court,
summarily dismissing, and summarily
affirming the summary dismissal of Petitioner’s
District Court actions for relief from judgment
for judicial acts of fraud on the court - all
without ever reviewing or addressing
petitioner’s fraud on the court allegations, the
very subject matter of his action, the very
allegations, that would entitle him to relief and
the fraudulent judgment set aside.
Respondent Congressman Sherman also
through fraudulent misrepresentation of the
facts denied Congress’s ability to oversee the
judicial misconduct.

18

Peer Review Violations
The Hospital conducted a fraudulent peer
review which included its August 1, 1994
meeting composed of its Medical Executive
Committee (MEC). The MEC members all held
Hospital and Partnership appointed
administrative positions.
Included in the Hospital’s actions:
The Hospital appointed five Hospital
physicians to randomly review 85 of Petitioner’s
patient care records. These physicians wrote
that in all instances Petitioner’s care was fully
satisfactory. The Hospital hid the existence of
this panel and its findings from its MEC.
The MEC members then at their August 1st
meeting as the “initial decision makers” voted to
terminate Petitioner. The charges at this
meeting were the basis for termination.
The Hospital per State Law and its Bylaws
provided three hearings to appeal the
termination recommendation. Prevailing at any
one of these hearings would reverse the
termination.
The First Hearing -Violations:
Conducted April 15, 1994, the Hospital
installed its same MEC “fact-finders” to vote

19

and uphold their “initial findings and be the
“final decision makers”, violating Federal and
State statute (809, et.seq.) (App. 92-111).
The Hospital ignored its Bylaws and
installed its attorney into its Hearing while
prohibiting Petitioner an attorney. The Hospital
again withheld from its MEC the existence of a
five physician panel and their positive letter of
findings documenting no problems in any of the
81 files they randomly reviewed.
The Bylaws permitted Petitioner
representation by a Hospital physician of the
same specialty. Dr. Scott McKenzie represented
Petitioner. His testimony included:
‘T found the reports [against Petitioner]
to be extremely flawed. . . The bias
concern has been born out... and when I
read the Subcommittee report it seemed
like a litany of horrors, and I was sure I
would find a smoking gun . . . maybe even
an arsenal. I didn’t.”....
...You all have to hear me out and bear
with me because you all have self-interest
in this report, and I know you will have
difficulty admitting how badly flawed it
are.” . . . “I certainly didn’t think this was
the type of presentation I would make.
When I read the report, I thought Dr.
Jaffe would have no option but to beg for
forgiveness. But the facts demanded this

20

accounting, even though I realize
injecting me into this conflict with
administration could potentially involve
personal and professional costs to me.
Even his critics offer Dr. Jaffe significant
praise - he is hardworking, extremely
attentive to his patients’ needs,
conscientious, very caring, and dedicated
to the department of internal medicine.
In fact, when the department is plagued
by multiple unexpected absences, he has
pitched in and volunteered on short notice
more often than any other internist, bar
none, I know, because I’m responsible for
the call schedule.. ..
Also, the Internal Medicine Department
has a formula designed to measure
meritorious service. The July ’94 average
score was 59.8; Dr. Jaffe’s was 66.0.
What does this reflect? The variables
include practice size, productivity,
number of Hospital discharges, L.O.S
(length of stay); etc. My personal favorite
variable is the number of patients who
change doctors, a very strong indicator of
patient satisfaction. Dr. Jaffe is
consistently among the best 5% or 10% of
the department.”
The Hospital failed to provide the medical
records for a number of its charges. Dr.
McKenzie requested continuance until all

21

records were provided. The hospital went
forward despite the missing records. Dr.
McKenzie solidly refuted the charges for which
he was provided the medical records. However,
overseen by the Hospital’s attorney and Medical
Chair, the MEC members voted to uphold their
termination.
The Hospital then backdated the minutes
of its First Hearing and falsely declared it “a
meeting” in order to escape it’s Federal and
State (B&P 805-809) statutory fair hearing
mandates that apply to hearings.
The Second Hearing (Arbitration) Violations
During the second hearing the Hospital
removed some of the charges that were the basis
for the termination and added new charges that
were not the basis for the termination.
The Hospital selected and paid 100% an
arbitrator/attorney whose career is arbitrating
Hospital hearings. (App: 112-141. Such
financial bias is prohibited by U.S. Supreme
Court precedent1.
lTumey v. Ohio (1927) 273U.S. 510, 523: “Of all the types of bias
that can affect adjudication, pecuniary interest has long received
the most unequivocal condemnation and the least forgiving
scrutiny.. .It certainly violates the Fourteenth Amendment, and
deprives a defendant due process of law, to subject his liberty or
property to the judgment of a court the judge of which has a
direct, personal, substantial, pecuniary interest in reaching a
conclusion against him in his case...While the rules governing

22

Petitioner’s expert witness testimonies,
supportive authoritative text and literature, the
medical records, the Hospital’s own guidelines,
together with the investigational findings of the
Medical Board (Apps 441, 442) solidly proved
Petitioner within the standard of care on all the
Hospital’s charges.
The Hospital provided no such witnesses,
texts, literature or guidelines to support its
charges, withheld portions of the administrative
record, and misstated, tampered with and/or
creatively photocopied the medical records to
make the records fit its charges.
Expert Witness Testimony
Lead expert witness, David Goldstein.
M.D. Chief of Medicine. University of Southern
California testified:
“.... in the end, this case is about a man’s
career, his life. While the Medical
Executive Committee has ignored their
community’s standard for conducting fair
and impartial peer review, the case
against Robert Jaffe revolves around
whether the fifteen cases under
discussion prove his incompetence.
Nothing could be further from the truth.
Robert Jaffe is a dedicated, caring and
the disqualification of administrative hearing officers are in some
respects more flexible than those governing judges, the rules are
not more flexible on the subject of financial interest.”

23

bright physician. His patients adored him
for good reason....If these cases had been
presented to an objective panel of
clinicians, the charges would have been
summarily dropped as ludicrous. The
Medical Executive Committee never
provided one shred of evidence from an
impartial expert. The Medical Executive
. Committee simply had one Kaiser
Physician testify after another. Indeed,
many of the cases merely represent
differences in clinical judgment between
Dr. Jaffe and the Medical Executive
Committee. There are many different
ways to treat patients. All but two of the
patients had quite satisfactory outcomes.
The two poor outcomes in no way resulted
from Dr. Jaffe’s performance. If, of all of
the charts (from eighteen years’
experience) that were culled by the
Medical Executive Committee, these
fifteen were the worst that they could
find, then why did the patients do as well
as they did. If there was such poor
management by Dr. Jaffe, why was there
such a dearth of poor outcomes? The vast
majority of these cases arose not from
quality fall-outs, but from proctoring,
biased proctoring at that.
...Most troubling has been the Medical
Executive Committee’s lack of awareness
of current clinical practice. Some
examples of the Medical Executive
Committee’s poor judgment and

24

inadequate fund of medical knowledge
appeared in the cases of CW, ES, WC, DR
and EH. The Medical Executive
Committee’s contention that Dr. Jaffe
used the wrong antibiotic for CW not only
reflects their bad judgment and poor
knowledge, but also their inability to keep
up with current literature. The Medical
Executive Committee’s argument that ES
should have had a transfusion again
speaks to their poor judgment and, at the
same time, refutes Dr. Schottinger’s claim
as an expert in hematology. The Medical
Executive Committee’s assertion that WC
was not a prime candidate for a trial on
oral hypoglycemic agents is pure
nonsense. The testimony of their
supposed expert, Dr. Fate mi was an
embarrassing display of ineptitude. Her
lack of familiarity with the writings of
Mayer Davidson2, as well as the
teachings of her own mentor, Dr. Jorge
Mestman3, clearly reflected her belowaverage level of knowledge. Ms.
Meinhardt’s assertions that DR and EH
received inappropriately voluminous
fluids is simply ludicrous. Were the
Medical Executive Committee to share
this latter opinion with an objective
2 Meyer Davidson-Professor of Medicine, UCLA School
of Medicine, President American Diabetes Association
3 Jorge Mestman- Professor of Medicine and Diabetology
University of Southern California. Recipient yearly of the
House-staff best teacher- professor award.

25

physician, or panel of physicians, the
Medical Executive Committee would be
advised to return to medical school for a
refresher course in heart failure. Clearly
the Medical Executive Committee could
find no support for such a contention from
their own doctors who also cared for these
patients, namely Drs. Talkin Chief of
Cardiology and (Internist Richard)
Noceda, who saw these same patients as
Dr. Jaffe, and advised fluid management.
...Finally, there is the case of EH. In this
situation the Medical Executive
Committee has behaved so
unprofessionally that it should have
warranted dismissal of all charges
against Dr. Jaffe. The medical record
was altered to make it appear as if Dr.
Jaffe had performed badly when in fact
he had done nothing wrong. Dr. Jaffe did
nothing to contribute to this unfortunate
man’s demise. To imply so is at best
hypocritical. The Medical Executive
Committee should have displayed some
small bit of courage, admit the
unprofessional behavior and pulled this
charge from the case against Dr. Jaffe.
The fact that they have not, taints the
Medical Executive Committee’s entire
closing argument.”
The arbitrator ignored Petitioner’s expert
witness testimony and supportive literature and

26

text documenting Petitioner to be within the
standard of care on all the charges, and cut
short Dr. Goldstein as he successfully refuted
each charge.
The arbitrator ignored the Hospital’s
violations of law and due process during the
peer review and the First Hearing and allowed
new violations to continue throughout his
arbitration hearing.
On December 15, 1997, the arbitrator
upheld the Hospital’s termination, by devious
methods, including changing the Hospital’s
charges, ignoring his own arbitration rules.

The Third Hearing - Violations:
At the Appellate Review Board Panel
Hearing (third hearing) Petitioner was allowed
to appeal the arbitrator’s actions and findings.
The panel was comprised of three Kaiseraffiliates where the Bylaws stated only one
member must be Kaiser-affiliated. The Panel
was selected by the Hospital. Petitioner was
refused a say in the selection process.
The Hospital’s lead member of its Board of
Directors chaired the hearing and the Hospital’s
Assistant General Counsel was installed into
the Hearing to oversee the Panel. Petitioner
remained pro se. The Panel denied Petitioner

27

his right to voir dire and stated if he so
attempted they would refuse him the hearing.
Petitioner raised before the Panel all the due
process violations that occurred during the
Hospital’s Peer Review and Hearings.
Petitioner also reviewed, the medical charges
with the Panel. The Panel testified that the
Hospital had not provided them the medical
records to review. The Panel ignored the
Medical Board’s Investigational Findings of no
deviation from the standard of care on all the
charges, and upheld the termination. (App.207258)
Judicial Acts of Fraud on the Court - The
Courts:
Petitioner filed a Petition for Writ of Mandamus
challenging the Hospital’s decision before Los
Angeles Superior Court Judge Yaffe on
December 16, 2001. Petitioner therein
documented the Hospital’s statutory and due
process-fair hearings violations along with the
probative proof from the administrative record
that the medical charges were not supported by
evidence. Petitioner included the California
Medical Board’s investigational determination
of no deviation from the standard of care on all
the charges (App. 1-2) and the independent
expert witness testimony with supporting text
and literature finding Petitioner to be within
the standard of care on all the charges.

28

C.C.P. 1094.5 outlines the standard of
review for Writ of Mandamus hearings.
(§1094.5(6) requires the court review for due
process and fair procedure. §1094.5(d) requires
the court review the charges for substantial
evidence. However, Judge Yaffe performed
neither review. Instead of enforcing the
statutory and due process law cited in
Petitioner’s trial court briefs, Judge Yaffe
committed numerous acts of “fraud on his
court.” He falsely stated essential facts, dates,
issues and law and devised a false premise in
his Opinion which he used to “waive” and not
address any of Petitioner’s statutory and due
procedure issues. Regarding the medical
charges, Judge Yaffe addressed only one of the
12 alleged charges and he misapplied the
required “substantial evidence test” to that
charge by changing the charge to a non-existent
charge. Through these acts of fraud on his
court, on 1/10/03 Judge Yaffe denied Petitioner’s
Writ of Mandamus. (App. 3-41.)
Petitioner then appealed to the California
Court of Appeals, Second Appellate District
(Turner). Petitioner documented Judge Yaffe’s
acts of fraud upon his court that led to a
fraudulent judgment (App. 97-153), and asked
the judgment be set aside.
These judges falsely stated essential
facts, dates, issues and law, and failed to
address the statutory and due process violations
that occurred during all three of the Hospital s

29

Hearings. They devised their own false premise
to “waive”, “forfeit” and not address Judge
Yaffe’s actions. (App. 158-266) and committed
their own acts of fraud on their court to sustain
the lower court’s and the Hospital’s actions.
Petitioner then filed a Complaint with the
(Pregerson) District Court (Case CV 068094DDP (JTLx), on December 18, 2006, under
FRCP Rule 60(b) seeking to set aside the State
court judgment for fraud on the State courts.
(App.74-269.)
On 2/8/07 District Court Judge Pregerson,
through false means shown below, summarily
dismissed Petitioner’s Complaint without
review of the fraud on the court allegations.
On 12/8/07, Petitioner timely submitted a Rule
60b Motion to the Pregerson District Court,
proving that Judge Pregerson unlawfully
dismissed his Complaint, that Hooker-Feldman
with its Kougasain delineation specifically
directs the District Court to hear on State court
fraudulently procured judgments.
On 12/14/07 Judge Pregerson issued his
Order Not to File Petitioner’s Rule 60(b) Motion
App 42-43, thus refusing his jurisdiction.
Petitioner then filed his Opening Brief
with the Ninth Circuit (Judge Canby) 2/2/08
(App.356).

30

The Ninth Circuit falsely claimed judicial
immunity and lack of subject matter jurisdiction
and summarily dismissed Petitioner’s
Complaint.
On 6/22/10, Ninth Circuit (Judge Canby)
upheld Judge Pregerson’s Order Not to File
Petitioner’s Rule 60(b) Motion, again refusing
the required review of Petitioner s fraud on the
court allegations: “We decline to address Dr.
Jaffe’s contentions regarding the underlying
dismissal of his case.” (App.44-45)
On 10/11/11, Petitioner filed a FRCP
Rule 60(b) Complaint naming Judge Pregerson,
requesting relief from Judgment for fraud on
the District Court (Case No. ll-CV-08363SVW), with District Court (Judge Wilson.)
On 2/2/12, District Court (Judge Wilson)
summarily dismissed Petitioner’s Rule 60(b)
action without review of the fraud on the court
allegations. See Court’s Order page 2, fn. 1:
“Because the court finds the action is barred by
judicial immunity.. .the court need not address
whether plaintiff has sufficiently alleged fraud
on the court.”
On 2/27/12, Petitioner timely filed a
Motion for Reconsideration as the District Court
had summarily dismissed his Complaint for
relief from judgment for fraud on the court,
without review of the fraud on the court
allegations, thus denying an evidentiary

31

hearing. Petitioner also cited Federal and U.S.
Supreme Court precedent holding that judicial
immunity does not bar actions for relief from
judgment for judicial fraud on the court.
On 9/10/12, District Court (Judge Wilson)
denied Petitioner’s Motion for Reconsideration
without allowing a hearing. (App. 354).
On 4/30/12, Ninth Circuit (Judge Leavy)
issued a 21-day Order to Show to Cause as to
why the District Court Judgment should not be
summarily affirmed.
On 5/21/12 petitioner filed his Response.
(App.336)
The Ninth’s Circuit (Judge Levy’s) Order
dated 6/14/12 (App. 353) summarily affirmed
the District Court (Judge Wilson’s) Dismissal of
Petitioner’s Complaint for Fraud on the Court
by Judge Pregerson. The Ninth Circuit (Judge
Levy) upheld Judge Wilson’s refusal to hear
Petitioner’s FRCP Rule 60(b) Motion and
refused their mandate to review de novo
Petitioner’s fraud on the court allegations,
thereby acting with fraud on their Circuit Court.
On 6/26/13 Petitioner filed to the Ninth
Circuit (Judge Leavy), a Motion for
Reconsideration, (App. 415) again documenting
the District Court (Judge Wilson) had dismissed
Petitioner’s Complaint for Fraud on the Court
without any review of Petitioner’s Fraud on the

32

District Court allegations, thus denying an
evidentiary hearing. Summary affirmance in
any action is prohibited when an evidentiary
hearing has been denied. {Alex, supra,)
On 9/10/12, the Ninth Circuit’s Order
(Judge Leavy), denied Petitioner’s Motion for
Reconsideration (App. 354), without review of
the fraud on the court allegations.
On 3/11/13 Petitioner timely filed in
District court (Judge Wilson) a Rule 60(b)
Motion to set aside his (Judge Wilson’s Order on
the basis that Judge Wilson had not performed
his required standard of review.
On 3/13/13 the District Court (Judge
Wilson) denied Petitioner’s Rule 60(b) on false
grounds: (1) falsely calling it a Motion for
Reconsideration; (2) falsely stated it to be
untimely under the rules of a Motion for
Reconsideration, (a Motion for Reconsideration
must be filed within 30 days, whereas a Rule
60(b) Motion for Relief from Judgment for Fraud
on the Court within one year.) Petitioner’s 60(b)
Motion was timely filed within one year.
On 3/21/13 Petitioner appealed the
District Court (Judge Wilson’s) Order denying
Petitioner’s FRCP Rule 60(b) Motion to the
Ninth Circuit (Judge Tashima).
On 9/9/13 the Ninth Circuit summarily
affirmed the District Court’s (Judge Wilson’s)

33

summary dismissal of Petitioner’s Rule 60(b)
Complaint and Motion for relief from judgment
for fraud on the court by citing holdings
irrelevant to the required standard of review for
actions for relief from judgment for fraud on the
court. The order (App.432) citing Palomo v.
Baba, stated, “The District court cannot act in a
manner inconsistent with the mandate...”is
contrary to U.S. Supreme Court precedent that
any order (including a mandate) is a null and
void. A mandate does not make a fraudulently
procured order valid. Valley v. Northern Fire &
Marine Ins. Co. 254 US.S 348, 41 S. Ct. 116
(1920): (an order procured by fraud on the court
can never be final.)
Furthermore, Fisher u. Amaraneni, 565
So. 2d 84 (Ala. 1990) holds that “Rule 60(b) (4)
motions involve a different standard of review:
. . . "[w]hen the denial turns on the validity of
the judgment, discretion has no place for
operation. If the judgment is void it must be set
aside”.
Thus, the Ninth Circuit’s (Tashima)
statement “it cannot act in a manner
inconsistent with the mandate of the court” does
not apply to fraudulent judgments.
Furthermore, the Ninth Circuit’s 9/9/13 order
citing United States v. Hootonx 693 F.2d 857,
858 (9th Cir. 1982)incorrectly stated Hooton sets
the “standard” of review required for actions for
relief from a judgment procured by fraud on the

34

court. However, Hooton is inapposite. Hooton
involves motion to vacate a judgment based on
newlv discovered evidence, which is not the
standard of review for actions for relief from
judgment procured by fraud on the court. See
Fisher v. Amaraneni, supra.
On 5/5/14 the U.S. Supreme Court denied
Petitioner’s Writ of Certiorari (Jaffe v. Roberts).
On 2/11/15 Petitioner filed a District court
complaint naming the U.S. Supreme Court
Justices (Jaffe v. Roberts, et al.,) (Case No. 151018-DSF), for fraud on its court in not
exercising their supervisory power (per the
Bulloch, supra definition of fraud on the court, when the judge has not performed his judicial
function), and citing Fisher u. Amaraneni, 565
So. 2d 84 (Ala. 1990): "[w]hen the...denial turns
on the validity of the judgment, discretion has
no place for operation.” (Docket #1.)
On 5/18/15 the Ninth Circuit Court of
Appeals issued its Order upholding summary
dismissal of Petitioner’s Complaint. (App. 434)
On 7/28/15 the District court granted summary
dismissal of Petitioner’s District Complaint and
Action for relief from Judgment for fraud on the
court (Jaffe v. Roberts, et al. Case No. 2:15 cv01018-DSF), again without review of the fraud
on the court allegations, the Hospital’s medical
charges, nor the Hospital’s due process
violations.(App. 435).

35

On 8/6/15 Petitioner filed a Motion for
Reconsideration (Jaffe v. Roberts, et al. Case
No. 2:15 cv-01018-DSF) on the basis that the
District court overlooked and misstated
essential facts and Petitioner has been denied
an evidentiary hearing as all the courts, through
judicial acts of fraud on the court as outlined,
have not reviewed the fraud on the court
allegations, the Hospital’s medical charges, nor
the Hospital’s due process violations. (Docket
#35).
On 8/11/15 the District Court denied
Petitioner’s Motion for Reconsideration (Docket
#36) (App. 436).
On 12/4/15 petitioner filed an appeal in the
Ninth Circuit Court, Case #15-56328 (Jaffe v.
Roberts, et al., appealing the denial of
Petitioner’s Motion for Reconsideration and
summary dismissal of Petitioner’s District Court
Complaint.) (AOB). (App. 356)
On 8/24/16 the Ninth Circuit (Jaffe v. Roberts,
et al. (Case No. 2:15 cv-01018-DSF) denied
Petitioner’s Motion for Reconsideration and
Motion for Reconsideration En Banc, without a
hearing. (App.437.)
On 3/21/17, petitioner filed a Writ of

Certiorari before the U.S. Supreme Court,
(Jaffe, M.D., v. Roberts, Jr.,) Case No. 16-1181.

36

The U.S. Supreme Court by letter dated 5/30/17
upheld the District Court's decision through
judicial acts of fraud on the court, citing 28
TJSC section 2109falselv claiming lack of
quorum under 28 USC section 1. See the
Court's letter dated May 30, 2017:
"Because the court lacks a quorum (28 USC
section 1) and since the qualified justices are of
the opinion that the case cannot be heard and
determined until the next term of court the
judgment is affirmed under 28 USC section
2109. (Emphasis added.)
However, Section 2109 is not applicable
to plaintiffs case and cannot be invoked to
uphold the judgment in this case because
Section 2109 requires that there be a “majority”
of qualified justices taking part in the decision,
and the Court's 5/30/17 letter had stated:
."The Chief Justice, Justice Kennedy,
Justice Thomas, Justice Ginsburg, Justice
Breyer, Justice Alito, Justice Sotomayer
and Justice Kagan took no part in the
consideration or decision of this
petition."
Since eight of the nine justices took no
part in the consideration or decision of the
petition, there was, therefore, no “majority” of
“qualified Justices” who took part in the

37

decision within the meaning of section 2109 for
that section to be invoked for the purposes of
upholding the judgment in plaintiff’s action.
On 6/14/17 plaintiff timely filed a
Petition for Rehearing. On June 23, 2017 his
Petition for Rehearing was returned by the
court clerk stating “Because the Court lacks a
quorum in this case, 28 USC, section 1, the
Court cannot take action on the Petition.
Plaintiff requested that the U.S. Supreme
Court wait to convene quorum in this case as,
as shown above, 28 USC, section 2109 was
wrongfully invoked in this case to uphold the
fraudulently procured judgment in plaintiffs
case, and because actions for relief from
judgment for fraud on the court must be heard
in open court per the U.S. Supreme court
precedent and federal law cited in plaintiffs
Petition for Rehearing and also cited again
above.
Congressman Sherman’s Fraudulent
Misrepresentation of Petitioner’s Case
Thereby Denying Congress’ Ability to
Oversee the Judicial Misconduct
On July 27, 2017, November 6, 2017;
November 21, 2017; and December 23, 2017;
(Apps.443-457,458-498,505-521) .petitioner

38

wrote Respondent Congressman Sherman,
reporting the judicial misconduct and judicial
acts of fraud on the court which led to the
fraudulent state court judgment, which had
upheld the hospital’s removal of his hospital
privileges without due process of law. Plaintiff
also listed the statutory due process violations
and U.S. Supreme Court precedence that the
courts failed to enforce.
Plaintiff requested Congressional
oversight over the judicial misconduct and the
judicial acts of fraud on the court by all the
courts, including the U.S. Supreme Court,
which had, through judicial acts of fraud on its
court detailed herein, denied plaintiff s writ of
Certiorari, thereby refusing to enforce its
supervisory power over the lower courts,
delegated to it by Congress.
However, respondent Congressman
Sherman fraudulently and deceptively
misrepresented the facts of plaintiff s letters
and plaintiffs reason for contacting congress in
response to plaintiffs letters to him, thereby
perpetrating the judicial fraud on the courts.
Respondent Sherman responded via his
attorney. Ms. Carolina Krawiec. through emails
to petitioner dated November 28, 2017
(App.552-526), January 3, 2018, and January 8,

39

2018. (App.530), each time overtly fraudulently
misstating petitioner’s case and his reason for
contacting congress. Her emails to petitioner
stated, “Thank you for contacting our office in
response to the difficulties you have
encountered in pursuing vour legal case against
Kaiser.. .and Re: Your dispute with Kaiser.”
She intentionally misstated petitioner’s
case and intentionally omitted the true facts of
petitioner’s case in order to render her
conclusion that defendant Sherman and
Congress cannot provide oversight. She
intentionally omitted that petitioner presented
to Congressman Sherman a case for oversight
of Congress, -judicial acts of fraud on the
courts - a fraudulently obtained state court
judgment which upheld the hospital’s
termination of plaintiffs hospital privileges,
which was obtained and summarily affirmed by
the courts through their judicial acts of fraud on
their respective courts, all without review of the
hospital’s due process violations, or the
hospital’s charges, or review of petitioner’s
fraud on the court allegations.
Carolina Krawiec’s reply to petitioner dated
Nov. 28, 2017 (App.522-526) stated:
“Re: Dispute with Kaiser. Thank you for
contacting our office regarding the difficulties
you have encountered in pursuing your legal

40

case against Kaiser....” Unfortunately, the
issues you have raised in vour correspondence
are matters in which our office cannot
intervene.. . I regret that we cannot offer you
assistance with this matter. The type of
assistance that we can provide constituents is
help in resolving problems with administrative
agencies of the federal government such as the
Internal Revenue Service, the Social Security
Administration, or United States Citizenship
and Immigration Services. We are able to offer
this assistance because Congress has an
oversight role over federal agencies that is
derived from its constitutionally defined
powers, has been recognized bv the Supreme
Court, and is mandated bv federal law. Please
feel free to contact our office in the future if
you have problems with a federal agency.
Carolina Krawiec’s reply email to
petitioner dated January 3, 2018 (App.527) stated:
“Re Dispute with Kaiser. In November, I
sent you the email below in response to your
correspondence about your dispute with
Kaiser. Today, we have again received
correspondence from you about this same
issue. Please refer to the information.
Carolina Krawiec’s reply email to
petitioner dated January 8, 2018 (App.530), again

41

misstating the facts and again ignoring petitioner’s
letters clarifying that she had misstated the facts of
petitioner’s letters, stated:
“We have received a letter from you dated
January 4, 2018. The contents of the letter
are very similar to your previous two letters,
and our response remains the same. As we
have now read substantially the same letter
three times, and have provided you the same
response three times, this is the final
response you will receive from our office
regarding this issue.”
The instant U.S. Supreme Court Writ of
Certiorari follows.
Petitioner’s FRCP Rule 60(b) Complaint
and Motion documented that Petitioner was
denied a hearing by the Hospital and the State
and an evidentiary hearing by the Federal
Courts.
The due process violations of the Hospital
and the Hospital’s charges received only
fraudulent reviews by the State courts and
therefore in fact never reviewed by the State
courts. Petitioner’s independent District Court
Complaints and his Rule 60(b) Motions to set
aside the judgment for fraud on the court were
summarily dismissed and the summary
dismissal then summarily affirmed without

42

review of the fraud on the State court
allegations, in violation to the Ninth Circuit’s
holding in Alex. (United States v. Alex. 81-6010)
All the Federal courts unlawfully
summarily dismissed and summarily affirmed
their summary dismissals of Petitioner’s
Complaints and Motions to set aside the
judgments procured by fraud on the courts,
through judicial acts of fraud on the court, and
all without ever performing their required
standard of review for fraud on the court
allegations. Thus Petitioner was denied an
evidentiary hearing on the subject matter of his
suit. See Throckmorton, 98 U.S. 61, 25 L.Ed.
93:
“The cases where such relief has been
granted are those in which, by fraud or
deception practiced on the unsuccessful
party, he has been prevented from
exhibiting fully his case, bv reason of
which there has never been a real contest
before the court of the subject matter of
the suit.”
Bulloch v. United Statesx 763 F.2d 1115
(10th Cir.1985) holds that judicial fraud on the
court occurs where the judge has not performed
his judicial function.”
Furthermore, Wonder v. Southbound
Records, Inc., 364 So. 2d 1173 (Ala. 1978) holds

43

a judgment as void if the “court acted in a
manner inconsistent with due process.”
"[Wjhen the...denial turns on the validity of the
Judgment, discretion has no place for operation.
Fisher u. Amaraneni, 565 So. 2d 84 (Ala. 1990).
CONCLUSION
In light of the foregoing, Petitioner requests this
Court exercise its supervisory power to direct its
District Court to review, hear in open court with
jury, and with the readily proved facts, set aside
the State court’s judgment.
Furthermore, the instant Order dated
August 26, 2019 (<Jaffe u. Sherman, Case CV-195536 (App.439),cites United States v. Hooten,
693 F,2d 857, 858 (9th Cir. 1982) and states,
“. • .the questions raised in this appeal are so
insubstantial as to not require further
argument. However, United States u. Alex, 816010) holds, “We did not believe that the
question whether Alex was entitled to an
evidentiary hearing was so insubstantial as to
merit summary disposition.”

Dated: November 15, 2019
Respectfully submitted,
/S
Robert James Jaffe, M.D.
Petitioner, in Pro Se

